HHS/OIG, Audit - "Review of High-Dollar Payments for Part B Services
Processed by First Coast Service Options, Inc. for the Period January 1, 2004,
Through December 31, 2006," (A-04-07-06021)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for Part B Services Processed by First Coast Service Options, Inc. for the
Period January 1, 2004, Through December 31, 2006," (A-04-07-06021)
June 30, 2008
Complete
Text of Report is available in PDF format (391 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the 300 high-dollar
payments in our random samples of claims that First Coast Service Options, Inc.
(First Coast) paid to providers, 299 were appropriate.  First Coast overpaid a
provider during calendar years (CY) 20042006, $12,356 for the remaining claim.  First Coast made the overpayment in
calendar year 2005 because the provider incorrectly claimed excessive units of
service.  In addition, the Medicare claim processing systems did not have
sufficient edits in place during CYs 20032005 to detect and prevent payments
for these types of erroneous claims.  We recommended that First Coast
recover the $12,000 overpayment.  First Coast agreed to recover the $12,000
overpayment.